APPLICATION AND
SOLICITATION
DISCLOSURE

Consumer Visa Account Disclosures

Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases

Visa

6.25% to 16.25%

, when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Visa Rewards

8.25% to 17.25% , when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.

Visa Share Secured

14.90%
Visa Business Rewards

10.25% to 19.25% , when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.

Visa Business Secured

14.90%
APR for Balance Transfers

Visa
6.25% to 16.25%, when you open your account, based on your
creditworthiness. This APR will vary with the market based on
the Prime Rate.
Visa Rewards
8.25% to 17.25%, when you open your account, based on your
creditworthiness. This APR will vary with the market based on
the Prime Rate.
Visa Share Secured
14.90%
Visa Business Rewards
10.25% to 19.25% , when you open your account, based on
your creditworthiness. This APR will vary with the market
based on the Prime Rate.
Visa Business Secured
14.90%

SEE NEXT PAGE for more important information about your account.
© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

13601205-MXC10-C-1-080317 (MXC101-E)

APR for Cash Advances

Visa
6.25% to 16.25%, when you open your account, based on your
creditworthiness. This APR will vary with the market based on the
Prime Rate.
Visa Rewards
8.25% to 17.25% , when you open your account, based on your
creditworthiness. This APR will vary with the market based on
the Prime Rate.
Visa Share Secured
14.90%
Visa Business Rewards
10.25% to 19.25%, when you open your account, based on your
creditworthiness. This APR will vary with the market based on
the Prime Rate.
Visa Business Secured
14.90%

How to Avoid Paying Interest on
Purchases

Your due date is at least 23 days after the close of each billing cycle. We will
not charge you any interest on purchases if you pay your entire balance by
the due date each month.

For Credit Card Tips from the
Consumer Financial Protection Bureau

To learn more about factors to consider when applying for or using a
credit card, visit the website of the Consumer Financial Protection
Bureau at http://www.consumerfinance.gov/learnmore.

Fees
Annual Fee
- Annual Fee
Transaction Fees
- Cash Advance Fee
- Foreign Transaction Fee
- ATM Transaction Fee
Penalty Fees
- Late Payment Fee
- Over-the-Credit Limit Fee
- Returned Payment Fee

None
$3.00 or 1.50% of the amount of each cash advance, whichever is greater
1.00% of each transaction in U.S. dollars
$1.50
Up to $25.00
Up to $25.00
Up to $25.00

How We Will Calculate Your Balance:
We use a method called "average daily balance (including new purchases)."
Effective Date:
The information about the costs of the card described in this application is accurate as of:
This information may have changed after that date. To find out what may have changed, contact the Credit Union.
For California Borrowers, the Visa, Visa Rewards, Visa Share Secured, Visa Business Rewards and Visa
Business Secured are secured credit cards. Credit extended under this credit card account is secured by various
personal property and money including, but not limited to: (a) any goods you purchase with this account, (b) any
shares you specifically pledge as collateral for this account on a separate Pledge of Shares, (c) all shares you
have in any individual or joint account with the Credit Union excluding shares in an Individual Retirement
Account or in any other account that would lose special tax treatment under state or federal law, and (d)
collateral securing other loans you have with the Credit Union excluding dwellings. Notwithstanding the
foregoing, you acknowledge and agree that during any periods when you are a covered borrower under the
Military Lending Act your credit card will be secured by any specific Pledge of Shares you grant us but will not be
secured by all shares you have in any individual or joint account with the Credit Union. For clarity, you will not be
deemed a covered borrower if: (i) you establish your credit card account when you are not a covered borrower;
or (ii) you cease to be a covered borrower.
SEE NEXT PAGE for more important information about your account.
© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

13601205-MXC10-C-1-080317 (MXC101-E)

Other Fees & Disclosures:
Late Payment Fee:
$25.00 or the amount of the required minimum payment, whichever is less, if you are 10 or more days late in making a
payment.
Cash Advance Fee (Finance Charge):
$3.00 or 1.50% of the amount of each cash advance, whichever is greater.
ATM Transaction Fee (Finance Charge):
$1.50 will be assessed in addition to the Cash Advance Fee listed above and the ATM surcharge fee assessed by the
ATM operator per transaction (withdrawals and balance inquiries). Any Transactions at ATMs owned or operated by
Northwest Community Credit Union or the Co-Op Network will not incur this fee.

Over-the-Credit Limit Fee:
$25.00 or the amount of the transaction exceeding your approved credit limit, whichever is less.
Returned Payment Fee:
$25.00 or the amount of the required minimum payment, whichever is less.
Card Replacement Fee:
$5.00.
Document Copy Fee:
$5.00 per page.
PIN Replacement Fee:
$5.00.
Statement Copy Fee:
$2.00 per page.

Research Fee:
$15.00 per half hour.
Emergency Card Issuance Fee (Rush Card):
$50.00.

© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

13601205-MXC10-C-1-080317 (MXC101-E)

